Office of Inspector General


           SEMIANNUAL
            REPORT TO
            CONGRESS


For the Period April 1, 2013 through September 30, 2013




                  Report No. 49
               



  “Democracy demands wisdom and vision in its citizens”
National Foundation on the Arts and Humanities Act of 1965
THE OFFICE OF INSPECTOR GENERAL

             serves American taxpayers
       by investigating reports of waste, fraud,
    mismanagement, abuse, integrity violations or
     unethical conduct involving Federal funds.



           To report any suspected activity
 concerning NEH programs, operations, or employees

             Contact the OIG Hotline

                 1 (877) 786-7598


                  Mailing Address

   Office of Inspector General — Hotline
  National Endowment for the Humanities
      1100 Pennsylvania Ave. N.W., Room 419
              Washington, DC 20506


                        Fax

                  (202) 606-8329


              Electronic Mail Hotline

                    oig@neh.gov


                OIG Hotline Form

               www.neh.gov/about/oig




    Government employees are protected from reprisal

             Contacts can remain anonymous

           Information is treated as confidential
                                                   TABLE OF CONTENTS


         EXECUTIVE SUMMARY………………………..………………………………………..                                                                                      1

         THE NATIONAL ENDOWMENT FOR THE HUMANITIES…… ...................................                                                    2

         THE OFFICE OF INSPECTOR GENERAL........................................................................                            2

         AUDIT AND REVIEW ACTIVITIES .................................................................................                      3

         INVESTIGATIVE ACTIVITIES …………………………………………………………                                                                                    8

         HOTLINE ACTIVITIES …………………………………………………………..............                                                                            9

         OTHER ACTIVITIES ..........................................................................................................       10

         TABLE I - REPORTING REQUIREMENTS…………………………………………… ..                                                                              12

         TABLE II - INSPECTOR GENERAL-ISSUED REPORTS................................................                                       13
         WITH QUESTIONED COSTS

         TABLE III - INSPECTOR GENERAL-ISSUED REPORTS WITH ...................................                                             13
         RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE

         GLOSSARY OF AUDIT TERMINOLOGY ........................................................................                            14

         PEER REVIEW RESULTS………………………………………………………………...                                                                                Appendix A




NEH OIG Semiannual Report                                                      i                                                           September 30, 2013
                                         EXECUTIVE SUMMARY


         This Semiannual Report to Congress highlights the activities of the National Endowment for the Humani-
         ties — Office of Inspector General for the period April 1, 2013 through September 30, 2013. OIG activi-
         ties completed during this reporting period addressed grantee operations/compliance, including oversight
         of non-Federal audits of NEH grantees. We also engaged the services of Leon Snead & Company, P.C.
         (IPA) to conduct the annual audit of the NEH financial statements for fiscal year ending September 30,
         2013, as required by the Accountability of Tax Dollars Act of 2002.

         During the reporting period, we initiated and completed an audit of a state humanities council, in response
         to an allegation of fiscal mismanagement concerning the organization. Our audit disclosed several signifi-
         cant issues requiring the immediate attention of the Council’s management, to include the organization’s
         inability to assert compliance with the legislatively-mandated cost-sharing requirement applicable to two
         major funding vehicles for the organization; identification of approximately $64,000 in unallowable costs;
         erroneous reporting of Federal expenditures to the NEH; and multiple internal control and segregation of
         duties deficiencies.

         We received three Hotline complaints during this reporting period, of which one has resulted in our partic-
         ipation in a joint investigation being led by the National Science Foundation OIG. The joint investigation
         remains open as of September 30, 2013. There are no other matters currently being investigated by the
         NEH OIG and there are no Hotline contacts open as of the end of this reporting period.

         OIG staff continued participation on the Council of Inspectors General on Integrity and Efficiency
         (CIGIE) Grant Reform Working Group (GRWG), engaging in discussions and assisting with the drafting
         of the GRWG consolidated response to Office of Management and Budget (OMB) proposed grant re-
         forms, as set forth in guidance published in the Federal Register entitled, Proposed OMB Uniform Guid-
         ance: Cost Principles, Audit, and Administrative Requirements for Federal Awards. OIG staff also partic-
         ipated in the review and compilation of comments in response to OMB proposed changes to the infor-
         mation form (SF-SAC) used to report audit results, audit findings, and questioned costs as required by the
         Single Audit Act Amendments of 1996 and OMB Circular A-133, Audits of States, Local Governments,
         and Non-Profit Organizations.

         We continue to enhance our capability to perform effective independent oversight and to foster mutually
         beneficial working relationships among OIG, NEH management, the Congress, and other stakeholders.
         The quality and quantity of our audits and inspections are growing. As of the end of this reporting period,
         we have several major inspections in progress, focusing on the grant application in-take process, the NEH
         Government Charge Card/Travel Card programs, and the NEH information security program, pursuant to
         the requirements of the Federal Information Security Management Act of 2002 (FISMA). The results of
         these inspections will be reported in our semiannual report for the period ending March 30, 2014.

         Finally, I am pleased to report that the NEH OIG audit operations underwent and passed a peer review this
         period. The peer review provides third-party assurance that the audit organization has been suitably de-
         signed and complied with to provide the NEH OIG with reasonable assurance in performing and reporting
         in conformity with applicable professional standards in all material respects.




NEH OIG Semiannual Report                                   1                                               September 30, 2013
           THE NATIONAL ENDOWMENT FOR THE HUMANITIES
      In order to promote progress and scholarship in the humanities and the arts in the United States, Congress enacted
      the National Foundation on the Arts and the Humanities Act of 1965. This Act established the National Endow-
      ment for the Humanities (NEH) as an independent grant-making agency of the Federal government to support
      research, education, and public programs in the humanities. According to the Act, "The term 'humanities' in-
      cludes, but is not limited to, the study of the following: language, both modern and classical; linguistics; litera-
      ture; history; jurisprudence; philosophy; archaeology; comparative religion; ethics; the history, criticism, and
      theory of the arts; those aspects of social sciences which have humanistic content and employ humanistic meth-
      ods; and the study and application of the humanities to the human environment with particular attention to reflect-
      ing our diverse heritage, traditions, and history, and to the relevance of the humanities to the current conditions of
      national life."

      The NEH is directed by a Chairman, who is appointed by the President and confirmed by the U.S. Senate, for a
      term of four years. Advising the Chairman is the National Council on the Humanities, a board of 26 distinguished
      private citizens who are also appointed by the President and confirmed by the Senate. National Council members
      serve staggered six-year terms.

      Grants are awarded through four divisions - Research Programs, Education Programs, Preservation and Access,
      and Public Programs -- and three offices - Challenge Grants, Digital Humanities, and Federal/State Partnership.

      The most recently launched NEH initiative, Bridging Cultures, encourages the exploration of ways in which cul-
      tures from around the globe, as well as the myriad subcultures within America’s borders, have influenced Ameri-
      can society. This initiative is designed to bridge both space and time to help American citizens gain a deeper un-
      derstanding of their own varied cultural heritage, as well as the history and culture of other nations.




                             THE OFFICE OF INSPECTOR GENERAL
       The NEH Office of Inspector General (OIG) was established April 9, 1989, in accordance with the Inspector
       General Act Amendment of 1988, (Public Law 100-504). In this legislation, Congress established Offices of
       Inspector General in several departments and in thirty-three agencies, including the NEH. The NEH Inspector
       General (IG) is appointed by the Chairman of the National Council on the Humanities. The independence of the
       IG is an important aspect of the Inspector General Act. For example, the IG: cannot be prevented from initiat-
       ing, carrying out, or completing an audit or investigation, or from issuing any subpoena; has access to all records
       of the Agency; reports to the National Council on the Humanities, and can only be removed by the National
       Council on the Humanities, which must give Congress 30 days notice of the reasons for the removal; and reports
       directly to Congress.

       The Act states that the OIG is responsible for (1) conducting audits and investigations; (2) reviewing legislation;
       (3) recommending policies to promote efficiency and effectiveness; and (4) preventing and detecting fraud,
       waste, and abuse in the operations of the Agency. The IG is also responsible for keeping the Chairman and Con-
       gress fully and currently informed of problems and deficiencies in the NEH programs and operations.

       The OIG staff currently consists of the Inspector General, two auditors, and an administrative officer. The Dep-
       uty Inspector General position is vacant. The OIG has a Memorandum of Understanding with the United States
       Treasury Inspector General for Tax Administration detailing the procedures for the OIG to be provided legal
       services. Investigations are handled by the IG.




NEH OIG Semiannual Report                                          2                                                   September 30, 2013
                                      AUDIT AND REVIEW ACTIVITIES

                                            LIST OF REPORTS ISSUED
       The OIG is responsible for external and internal audits. External efforts include on-site grant audits, limited-scope desk
       audits, accounting system surveys, review of OMB Circular A-133 audit reports, and on-site quality control reviews of
       CPA workpapers. Internal efforts consist of audits, inspections, and reviews/evaluations of NEH administrative and
       programmatic operations, inclusive of the NEH information security program. The OIG is also responsible for moni-
       toring the work of the independent public accountant (IPA) engaged to conduct the annual audit of the NEH financial
       statements as required by the Accountability of Tax Dollars Act of 2002, and examining the IPA’s audit workpapers
       and draft reports to ensure compliance with applicable requirements.

       Below is a list of reports issued by the OIG during this reporting period. The Inspector General Act of 1978, as amend-
       ed, requires us to report on the "Total Dollar Value of Questioned Costs" (including a separate category for the “Dollar
       Value of Unsupported Costs”) and the "Dollar Value of Recommendations that Funds Be Put to Better Use", [see Ta-
       bles II and III].

                                                                                   Report Number                      Date Issued

    EXTERNAL AUDIT

    Limited Audit — Virgin Islands Humanities Council                              OIG-13-01 (EA)                      08/27/2013


    DESK REVIEWS

    Desk Review of the Single Audit Report for Year Ended                           OIG-13-05 (DR)                     04/05/2013
     October 31, 2011 — Idaho Humanities Council

    Desk Review of the Single Audit Report for Year Ended                           OIG-13-06 (DR)                     05/17/2013
     October 31, 2012 — Pennsylvania Humanities Council

    Desk Review of the Single Audit Report for Year Ended                           OIG-13-07 (DR)                     05/31/2013
     October 31, 2012 — Indiana Humanities

    Desk Review of the Single Audit Report for Year Ended                           OIG-13-08 (DR)                     07/10/2013
     June 30, 2012 — Connecticut Humanities

    Desk Review of the Single Audit Report for Year Ended                           OIG-13-09 (DR)                     07/19/2013
     September 30, 2012 — Alaska Humanities Forum

    Desk Review of the Single Audit Report for Year Ended                           OIG-13-10 (DR)                     07/30/2013
     October 31, 2012 — Humanities Iowa


    ACCOUNTING SYSTEM SURVEY

    Digital Public Library of America                                               OIG-13-02 (TS)                     09/25/2013


    SINGLE AUDIT ACT REVIEWS

    OMB Circular A-133 Reports                                                    —        See Page 6       —




NEH OIG Semiannual Report                                              3                                              September 30, 2013
                                 AUDIT AND REVIEW ACTIVITIES

                                      SUMMARY OF REPORTS ISSUED

                                                   EXTERNAL AUDIT

                                  Limited Audit — Virgin Islands Humanities Council
                                           August 27, 2013; OIG-13-01 (EA)

      The OIG performed a limited audit of the Virgin Islands Humanities Council (the “Council”) records as they
      relate to NEH grants SO-50281-08, SO-50450-11, BC-50507-09, and BC-50565-10. The Council receives
      approximately 95 percent of its annual funding from the NEH through the combination of General Support
      and We the People awards. Due to various issues identified by NEH program officials, the Council was
      placed on “high-risk” status effective March 2013. Upon being notified of fiscal anomalies involving the
      Council, we initiated a limited-scope audit of recent awards to the Council. The principal objectives of our
      limited audit were to determine that (1) grant expenditures were made in accordance with applicable provi-
      sions of NEH’s General Terms and Conditions for General Support Grants to State Humanities Councils,
      NEH’s Matching Guidelines for General Support Grants to State Humanities Councils, NEH’s General
      Terms and Conditions for Awards (GTAC), and the specific terms of the respective grant awards; (2) the
      Council properly tracked and met the legislatively-mandated cost-sharing requirement; and (3) proper con-
      trols over use of the Federal funds exist in accordance with minimum standards prescribed in OMB Circulars
      A-110 (2 CFR Part 215) and A-122 (2 CFR Part 230). Our review was conducted in accordance with Gener-
      ally Accepted Government Auditing Standards (GAGAS), as promulgated by the Comptroller General of the
      United States.

      We identified significant issues requiring the immediate attention of the Council’s management, to include:

         The NEH General Support grants provide the bulk of the Council’s annual funding. For every dollar in
           Outright Federal funds provided to a humanities council by the NEH, an equal amount of cash or in-kind
           contributions must be used to support the Council’s budgeted activities. We determined that the Virgin
           Islands Humanities Council neither tracks nor reports this information. This represents a major compli-
           ance deficiency.

         Our transaction testing identified unallowable costs totaling $38,298. Additionally, evidence of Board
           approval relating to another $25,570 in regrant awards could not be located, (which is required by the
           Council’s documented policies and procedures).

         With all four grants tested, the Requests for Advance or Reimbursement (SF-270s) and the Federal Fi-
           nancial Reports (SF-425s) erroneously reported Federal expenditures to the NEH. Rather than reporting
           actual project expenditures, the Council incorrectly based this reporting on the funds requested. We fur-
           ther noted certain limitations with the existing accounting structure that impacted the Council’s ability to
           extract and summarize expenditure data by grant/funding source.

         Our testing identified multiple internal control and segregation of duties deficiencies. In most cases, the
           Council failed to follow its own established policies/procedures.


      We further identified several lower-priority matters for management’s consideration. The Council generally
      concurred with the OIG findings and has submitted a corrective action plan. As of September 30, 2013, the
      Council remains in “high-risk” status.



NEH OIG Semiannual Report                                      4                                            September 30, 2013
                                AUDIT AND REVIEW ACTIVITIES

                                                 DESK REVIEWS

OMB Circular A-133 establishes audit requirements for state and local governments, colleges and universities, and
non-profit organizations receiving Federal awards. Covered entities, as defined by the Circular, that expend $500,000
or more a year in Federal awards must undergo an annual organization-wide audit that includes the entity’s financial
statements and compliance with Federal award requirements. The audits are conducted by non-Federal auditors, such
as public accounting firms and state auditors.

During the reporting period, we issued six letters communicating the results of our desk reviews of OMB Circular A-
133 audit reports. The objectives of the desk reviews were to: (1) determine whether the audit reports are
acceptable based on the reporting requirements of OMB Circular A-133; (2) identify any quality issues that may war-
rant follow-up work and/or revisions to the audit report; (3) identify audits for potential Quality Control Reviews
(QCR) of the independent auditors’ workpapers; and (4) identify issues that may require the attention of NEH man-
agement. We used the Guide for Desk Reviews of OMB Circular A-133 Audit Reports, issued by the Council of In-
spectors General on Integrity and Efficiency (CIGIE), to determine if the reports were in conformance with the core
reporting requirements stipulated by OMB Circular A-133.

We determined that four reports were acceptable and two reports were technically deficient. Reports deemed to be
technically deficient had to be corrected by the non-Federal auditor and resubmitted to the Federal Audit Clearing-
house.



                                       ACCOUNTING SYSTEM SURVEY

                                        Digital Public Library of America
                                                   Boston, MA
                                       September 25, 2013; OIG-13-02 (TS)

We completed a pre-award survey of the Digital Public Library of America, (DPLA). The purpose of our survey was
to obtain information to determine the adequacy of the organization’s accounting system, management controls, and
related policies and procedures designed to administer NEH grant funds.

The DPLA represents a small, non-profit organization that launched in April 2013. As such, the organization contin-
ues to draft and finalize their policies and procedures. Our survey primarily evaluated anticipated policies and proce-
dures that would be fully implemented in the near term. We identified areas in which existing/anticipated financial
management controls require improvement and/or strengthening. We concluded that, once the OIG recommendations
are implemented, the organization’s accounting system, management controls, and formalized administrative policies/
procedures should allow the organization to sufficiently manage and account for Federal grant funds.




NEH OIG Semiannual Report                                   5                                            September 30, 2013
                                AUDIT AND REVIEW ACTIVITIES


                                           SINGLE AUDIT ACT REVIEWS

 We receive communications from other Federal agencies regarding single audit findings, (primarily the Department of
 Health and Human Services and the National Science Foundation) and we routinely perform queries of the Federal Au-
 dit Clearinghouse to determine the reporting of single audit findings applicable to NEH awards. We occasionally re-
 ceive single audit reports directly from NEH grantees.

 During the period ended September 30, 2013, we reviewed 53 OMB Circular A-133 audit reports. Seven reports con-
 tained significant findings pertaining to NEH programs. We issued a memorandum to NEH management summarizing
 the independent auditor (IPA) findings, [OIG-13-01 (CAA); dated September 11, 2013]. We encouraged management
 to gain an understanding of the deficiencies reported by the IPAs and to follow-up with the grantees, as appropriate.


                                  WORK IN PROGRESS (as of September 30, 2013)


 Inspection ~ Grant Application In-take Process and Panel Development

 For purposes of this inspection, activities of NEH program staff and management from receipt of a grant application to
 presentation of the application for peer review/evaluation represent the grant application in-take process. The objec-
 tives of this inspection are to determine: (1) how applications are screened for eligibility and completeness, and when
 this screening takes place; (2) the scope of the review of draft proposals by NEH program staff and the criteria used
 during the review; (3) the extent of conformity with established guidance pertaining to the review of draft proposals; (4)
 the extent that program officials use agency guidance, NEH Principles and Considerations for Recruiting Panelists,
 when a panel is assembled; and (5) the existence of any division/office-specific guidance on panel recruitment and/or
 composition, and the extent of its use.


 Inspection ~ NEH Government Charge Card/Travel Card Programs

 On October 5, 2012, the President signed into law the Government Charge Card Abuse Prevention Act of 2012
 (“Charge Card Act”) [P.L. 112-194], which reinforced the Administration’s efforts to prevent waste, fraud, and abuse
 of government-wide charge card programs. Consistent with existing guidance contained in OMB Circular A-123, Ap-
 pendix B, Improving the Management of Government Charge Card Programs, the Charge Card Act requires all execu-
 tive branch agencies to establish and maintain safeguards and internal controls for purchase cards, travel cards, and cen-
 trally-billed accounts.

 The Charge Card Act also requires agency Inspectors General to (1) conduct periodic risk assessments of agency charge
 card programs to analyze the risks of illegal, improper, or erroneous purchases; and (2) submit an annual purchase and
 travel card audit recommendation status report to the OMB for compilation and transmission to Congress and the Gov-
 ernment Accountability Office. Due to this new mandate and fact that the NEH OIG last reviewed the NEH purchase
 card program approximately ten years ago, an inspection of the NEH Government Charge Card and Travel Card pro-
 grams was initiated. The results of this inspection will establish a baseline for the required risk assessments that must
 be performed by the OIG (as least annually) moving forward.




NEH OIG Semiannual Report                                    6                                            September 30, 2013
                                 AUDIT AND REVIEW ACTIVITIES

                              WORK IN PROGRESS (as of September 30, 2013) [con’t.]



 Inspection ~ Federal Information Security Management Act (FISMA) — Fiscal Year 2013

 The Federal Information Security Management Act of 2002 (FISMA) requires each agency to develop, document, and
 implement an agency-wide information security program. Each year, the OIG conducts an independent evaluation of
 the NEH information security program, pursuant to the requirements of FISMA.


 Limited Audit ~ Eastern Michigan University

 The principal objectives of this limited audit are to determine (1) whether grant expenditures related to NEH grant PD-
 50002-06 were made in accordance with applicable provisions of the Documenting Endangered Languages (DEL) Pro-
 gram guidance, NEH’s General Terms and Conditions for Awards to Organizations, and the specific terms of the grant
 award; (2) the underlying reasons that led to a reduction in the scope of the project and the delinquent filing of the final
 financial and performance reports; and (3) whether proper controls over use of the Federal funds exist in accordance
 with minimum standards prescribed by OMB Circulars A-110 (2 CFR Part 215) and A-21 (2 CFR Part 220).


 Limited Audit ~ Film Forum, Inc.

 The principal objectives of this limited audit are to determine that (1) grant expenditures related to NEH grant TR-
 50071-09 were made in accordance with applicable provisions of NEH’s General Terms and Conditions for Awards to
 Organizations, and the specific terms of the grant award; (2) Film Forum, Inc. properly implemented a comprehensive
 subrecipient monitoring program; and (3) proper controls over use of Federal funds exist in accordance with minimum
 standards prescribed by OMB Circulars A-110 (2 CFR Part 215) and A-122 (2 CFR Part 230).


 Desk Review ~ Georgia Humanities Council

 The objectives of the desk review are to: (1) determine whether the grantee’s single audit report for fiscal year ended
 October 31, 2012 is acceptable based on the reporting requirements of OMB Circular A-133; (2) identify any quality
 issues that may warrant follow-up work and/or revisions to the audit report; and (3) identify issues that may require the
 attention of NEH management.




NEH OIG Semiannual Report                                     7                                             September 30, 2013
                                  INVESTIGATIVE ACTIVITIES

                                                   BACKGROUND

   The Inspector General Act of 1978, as amended, provides the authority for the Office of Inspector General to
   investigate possible violations of criminal or civil laws, administrative regulations, and agency policies that im-
   pact the programs and operations of the NEH. In the past, we have obtained assistance from other OIGs, the
   Federal Bureau of Investigation (FBI), the Postal Inspection Service, and other investigative entities.

   Over the years, the OIG has received allegations via the OIG Hotline and did not have sufficient resources to
   initiate an investigation. Therefore, to address this challenge, we continue to inquire of other OIGs concerning
   their willingness and ability to assist us on an “as needed” basis under a reimbursable agreement. A few OIGs
   have responded that they would consider performing work for us on a case-by-case basis, depending on the
   availability of their staff. However, this assistance would be for criminal cases only and we have no guarantee
   that the OIGs would have staff available when needed.

   During this reporting period, we engaged in a joint investigative effort with the National Science Foundation —
   Office of Inspector General (NSF OIG). The NSF OIG is leading the investigation. There are no other matters
   currently being investigated by the NEH OIG.


                            MATTERS REFERRED TO PROSECUTIVE AUTHORITIES

  No matters were referred to the U.S. Department of Justice during this reporting period.




NEH OIG Semiannual Report                                   8                                           September 30, 2013
                                             HOTLINE ACTIVITIES


       We maintain a toll-free Hotline number and an agency e-mail address to provide additional confidentiality
       for individuals bringing matters to the attention of the OIG. We have also developed an interactive, web-
       based template to facilitate the submission of complaints to the OIG. The complaint template is accessible
       via the OIG homepage, (www.neh.gov/about/oig). The toll-free Hotline number, facsimile, web-based
       complaint form, e-mail address, and regular mail are efficient and effective means for NEH employees,
       NEH grantees and contractors, and the general public to submit allegations of fraud, waste, abuse, misman-
       agement, and misconduct concerning NEH programs/operations to the OIG.

       When the OIG receives a complaint or allegation of a criminal or administrative violation, a preliminary
       inquiry is conducted to determine the appropriate action to take. This decision could result in the initiation
       of an investigation or an audit; referral to an NEH office/division or another Federal agency; or no further
       action. When we determine that a matter represents a criminal violation, we will seek assistance from the
       Federal Bureau of Investigations (FBI), another Federal Inspector General, or the United States Department
       of Justice.

       As of the beginning of this reporting period, disposition of matters presented by three hotline contacts was
       open, pending the conclusion of the preliminary inquiry phase. Upon conclusion of the inquiry phase, we
       determined that no further action was necessary concerning each of the three matters. Three hotline con-
       tacts were received during the reporting period, of which one resulted in the initiation of a joint investiga-
       tion and two were determined to lack merit. There are no hotline contacts open as of the end of the report-
       ing period.

                                          SUMMARY OF HOTLINE ACTIVITY



                                          Open at beginning of period              3



                                       Matters brought to the OIG during
                                              the reporting period                 3



                                             Total Hotline Contacts                6


                                     Closed, referred, or no action deemed
                                             necessary during the
                                                reporting period                   6


                                             Open at end of period                 0




NEH OIG Semiannual Report                                   9                                            September 30, 2013
                                            OTHER ACTIVITIES

                                REGULATORY AND LEGISLATIVE REVIEWS

The Inspector General Act of 1978, as amended, requires the Office of Inspector General to review proposed legisla-
tion and regulations. The reviews are to assess whether proposed legislation and/or regulations (1) affect the economy
and efficiency of agency programs and operations; and (2) contain adequate internal controls to prevent and detect
fraud and abuse.

During this reporting period, OIG staff continued participation in the efforts of the CIGIE Grant Reform Working
Group (GRWG). This working group was organized to review the Advanced Notice of Proposed Guidance published
in the Federal Register on February 28, 2012 by the Office of Management and Budget (OMB) entitled, Reform of
Federal Policies Relating to Grants and Cooperative Agreements; Cost Principles and Administrative Requirements
(Including Single Audit Act), and to develop comments for consideration by the OMB. On February 1, 2013, OMB
published proposed guidance in the Federal Register entitled, Proposed OMB Uniform Guidance: Cost Principles,
Audit, and Administrative Requirements for Federal Awards. The GRWG submitted final comments in response to
the proposed guidance in June 2013.

OIG staff also participated in the National Single Audit Coordinators’ (NSAC) review of proposed changes to the ap-
proved information form (SF-SAC) that is used to report audit results, audit findings, and questioned costs as required
by the Single Audit Act Amendments of 1996 and OMB Circular A-133, Audits of States, Local Governments, and
Non-Profit Organizations, (notice published in the Federal Register on May 9, 2013). The NSAC group submitted
comments to the OMB in response to the proposed changes in July 2013 and August 2013.


                                        WORKING WITH THE AGENCY

OIG staff attended various NEH meetings – panel meetings (where grant applications are reviewed by outside consult-
ants), meetings of the National Council on the Humanities, and monthly senior staff meetings. OIG staff occasionally
contribute to the discussions, but the OIG does not participate in policymaking.

OIG staff also delivered a presentation about the mission, responsibilities, and activities of the NEH Office of Inspec-
tor General during an orientation meeting convened by the NEH Federal/State Partnership office in May 2013 for new
executive directors of state humanities councils.


                        PARTICIPATION ON THE COUNCIL OF INSPECTORS GENERAL
                                    ON INTEGRITY AND EFFICIENCY

The Inspector General Reform Act of 2008 (Public Law 110-409), amended the Inspector General Act of 1978 and
established the Council of Inspectors General on Integrity and Efficiency (CIGIE). The CIGIE is comprised of all
Inspectors General whose offices are established by the Inspector General Act of 1978 (and subsequent amendments)
— those that are Presidentially-appointed/Senate-confirmed and those that are appointed by agency heads (Designated
Federal Entities).

During the reporting period ended September 30, 2013, the IG regularly attended monthly CIGIE meetings (and pro-
vided responses to various CIGIE inquiries), bi-monthly meetings of the Federal Audit Executive Council (FAEC),
and bi-monthly meetings of the CIGIE sub-group representing the “Smaller OIGs”. The Inspector General also attend-
ed the annual CIGIE Conference held in May 2013 and the annual FAEC Conference held in September 2013. The
Inspector General and a senior auditor participated in the Single Audit Roundtable held in May 2013.




NEH OIG Semiannual Report                                  10                                           September 30, 2013
                                              OTHER ACTIVITIES

                                                  OIG INTERNET

  OIG audit/review reports and semiannual reports are posted on the internet. The reports are accessible through the
  OIG homepage on the NEH website (www.neh.gov/about/oig).

  To promote NEH staff awareness and understanding of the OIG mission and responsibilities, we provide hyper-
  links to several other Federal agencies such as the Office of Management and Budget, the Government Accounta-
  bility Office, the Office of Government Ethics, and the Council of Inspectors General on Integrity and Efficiency
  website (IGNET).


                                              TECHNICAL ASSISTANCE

  Throughout this reporting period, OIG staff provided technical help to NEH staff, grantees, and independent public
  accountants about various non-profit accounting and compliance-related matters. We are generally consulted
  about matters related to implementation of the audit requirements of OMB Circular A-133.


                               “AUDIT READINESS” AWARENESS CAMPAIGN

The OIG executes an “Audit Readiness” awareness campaign via e-mail, consistent with the NEH grant award cy-
cles. The objective of the campaign is to proactively promote accountability and to disseminate guidance that would
assist recipients of NEH grants in their efforts to preclude unfavorable outcomes should the organizations’ NEH
grants be selected for audit. The e-mail communication emphasizes the value of each recipient’s understanding of
the specific NEH grant terms and conditions and the administrative requirements applicable to all Federal awards.
We remind recipients that they are stewards of Federal funds and therefore must comply with the OMB circulars and
the terms and conditions of the NEH grant awards. Highlighted in the communications are specific areas wherein
problems are commonly found during audits of NEH grantees and hyperlinks to appropriate guidance materials and
resources. We also discuss the importance of effective internal controls. The e-mail communications are sent direct-
ly to project directors and grant administrators identified for all non-profit awardees.

During the reporting period ended September 30, 2013, e-mail communications were sent as noted below. We have
reasonable assurance that all of the awardees received a copy of the communication.


                 NEH Office or Division          Number of Awardees           Total Value of Awards
            Division of Public Programs                   33                         $6,428,700
            Division of Preservation and
             Access                                       33                         $5,443,647
             Division of Education Programs               20                         $3,432,894
             Division of Research Programs                14                         $3,029,625
             Office of Digital Humanities                  8                         $1,211,056
             Office of Challenge Grants                    3                         $1,100,000




NEH OIG Semiannual Report                                 11                                        September 30, 2013
                                                       TABLE I

                                  REPORTING REQUIREMENTS


       The Inspector General Act of 1978, as amended (Public Law 100-504), specifies reporting requirements for
       semiannual reports. The requirements are listed and cross-referenced to the applicable pages in this report.


       IG Act Reference                           Reporting Requirements                                  Page

       Section 4(a)(2)            Regulatory and Legislative Reviews………………………………                           10

       Section 5(a)(1)            Significant Problems, Abuses, and Deficiencies………………..…                   *

       Section 5(a)(2)            Recommendations for Corrective Action …………………………                          *

       Section 5(a)(3)            Prior Significant Recommendations Unimplemented…………..…                    *

       Section 5(a)(4)            Matters Referred to Prosecutive Authorities………………………                      8

       Section 5(a)(5)            Instances Where Information Was Refused or Not Provided……..              *

       Section 5(a)(6)            List of Reports Issued………..…………………………………….                                3

       Section 5(a)(7)            Summary of Reports Issued.……………………………………….                               4-6

       Section 5(a)(8)            Audit Reports - Questioned Costs….………………………………                           13

       Section 5(a)(9)            Audit Report - Funds To Be Put to Better Use.…….……………...                 13

       Section 5(a)(10)           Prior Audit Reports Unresolved……………………………………                              *

       Section 5(a)(11)           Significant Revised Management Decisions……………………….                        *

       Section 5(a)(12)           Significant Management Decisions with which OIG Disagreed…..              *

       Section 5(a)(14-16)        Peer Review Results………………………………………………. Appendix A


        * None this period




NEH OIG Semiannual Report                                        12                                             September 30, 2013
                                                      TABLE II
                                         INSPECTOR GENERAL-ISSUED REPORTS
                                               WITH QUESTIONED COSTS


                                                                               Number     Questioned   Unsupported
                                                                             Of Reports    Cost          Cost
         A. For which no management decision has been made by the                  -0-     $ -0-          $-0-
            commencement of the reporting period.

         B. Which were issued during the reporting period.                         -1-     $ 63,868       $-0-

                                     Subtotals (A+B)                               -1-     $ 63,868       $-0-

         C. For which a management decision was made during
            the reporting period.

                  i.    Dollar value of disallowed costs.                          -0-     $ -0-          $ -0-

                  ii.   Dollar value of costs not disallowed                       -0-     $ -0-          $ -0-

                  iii. Dollar value of costs not disallowed based on the           -0-     $ -0-          $ -0-
                       “Value of Services Received.”


         D. For which no management decision has been made by the                  -1-     $ 63,868       $ -0-
            end of the reporting period.

         E. Reports for which no management decision was made within               -0-     $ -0-          $ -0-
            six months of issuance.




                                                    TABLE III
                                        INSPECTOR GENERAL-ISSUED REPORTS
                               WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE
                                                                                                  Number       Dollar
                                                                                                  Of Reports   Value


         A. For which no management decision has been made by the commencement                         -0-     $-0-
            of the reporting period.

         B. Which were issued during the reporting period.                                             -0-     $-0-

         C. For which a management decision was made during the reporting period.                      -0-     $-0-

                  i. Dollar value of recommendations that were agreed to by management.                        $-0-

                  ii. Dollar value of recommendations that were not agreed to by                               $-0-
                      management.

         D. For which no management decision was made by the end of the reporting period.              -0-     $-0-




NEH OIG Semiannual Report                                      13                                         September 30, 2013
                            GLOSSARY OF AUDIT TERMINOLOGY


        Questioned Cost - A cost that is questioned by the OIG because of an alleged violation of a provision
        of a law, regulation, contract, grant, cooperative agreement, or other agreement or document
        governing the expenditure of funds; because such cost is not supported by adequate documentation; or
        because the expenditure of funds for the intended purpose is unnecessary or unreasonable.

        Unsupported Cost - A cost that is questioned because of the lack of adequate documentation at the
        time of the audit.

        Disallowed Cost - A questioned cost that management, in a management decision, has sustained or
        agreed should not be charged to the government.

        Funds Be Put To Better Use - Funds, which the OIG has disclosed in an audit report, that could be
        used more efficiently by reducing outlays, de-obligating program or operational funds, avoiding
        unnecessary expenditures, or taking other efficiency measures.

        Management Decision - The evaluation by management of the audit findings and recommendations
        and the issuance of a final decision by management concerning its response to such findings and
        recommendations.

        Final Action - The completion of all management actions, as described in a management decision,
        with respect to audit findings and recommendations. When management concludes no action is
        necessary, final action occurs when a management decision is made.

        Source: Excerpt from Section 106(d) of the Inspector General Act Amendments of 1988 (P.L. 100-
        504).




NEH OIG Semiannual Report                                  14                                       September 30, 2013
                                                                                        APPENDIX A

                                               PEER REVIEW RESULTS


       The following information is provided pursuant to the requirements of Section 989C of Public Law 111-203
       (July 21, 2010), the Dodd-Frank Wall Street Reform and Consumer Protection Act, amending the Inspector
       General Act of 1978 (the IG Act), 5 U.S.C. App. This appendix complies with Section 5(a)(14 - 16) of the IG
       Act of 1978, as amended.


       (14)(A) Peer Review of the Audit Function. On September 30, 2013, the Federal Elections Commission
       Office of Inspector General (FEC OIG) issued a System Review Report on the audit organization of the NEH
       OIG in effect for the year ended March 31, 2013. The FEC OIG found that the system of quality control for
       the audit organization of the NEH OIG had been suitably designed and complied with to provide reasonable
       assurance of performing and reporting in conformity with applicable professional standards in all material re-
       spects. Federal audit organizations can receive a rating of pass, pass with deficiencies, or fail. The NEH OIG
       received a peer review rating of pass with deficiency.

       (15) Outstanding Recommendations from any Peer Review of the NEH OIG. There are no outstanding
       recommendations from any peer review of the NEH OIG conducted by another Office of Inspector General
       that have not been fully implemented.

       (16) Peer Review Conducted by the NEH OIG. On January 27, 2011, the NEH OIG issued a System
       Review Report on the United States Capitol Police (USCP) Office of Inspector General audit organization in
       effect for the year ended September 30, 2010. We found that the system of quality control for the audit organi-
       zation of the USCP OIG had been suitably designed and complied with to provide USCP OIG with reasonable
       assurance of performing and reporting in conformity with applicable professional standards in all material
       respects. The USCP OIG received a peer review rating of pass.

       The NEH OIG is scheduled to conduct a peer review of the audit organization of the Peace Corps Office of
       Inspector General for the year ended September 30, 2013.




NEH OIG Semiannual Report                                                                               September 30, 2013
